Department of Homeland Security
   Ofﬁce of Inspector General


    Review of U.S. Coast Guard Enterprise Architecture

                 Implementation Process





OIG-09-93                                         July 2009
Contents/Abbreviations




Executive Summary ................................................................................................................1 


Background .............................................................................................................................2 


Results of Audit ......................................................................................................................5 


           Progress Made with the Coast Guard’s Enterprise Architecture ................................5 


           Challenges Remain to Complete Enterprise Architecture Efforts ............................11 


Recommendations.................................................................................................................15


Management Comments and OIG Analysis .........................................................................16 



Appendixes
     Appendix A:             Scope, Objective, and Methodology .....................................................17 

     Appendix B:             Management Response to Draft Report ................................................18 

     Appendix C:             Major Contributors to the Report ..........................................................20 

     Appendix D:             Report Distribution................................................................................21 



Abbreviation
     C4&IT                   Command, Control, Communication, Computers, and Information
                             Technology

     DHS                     Department of Homeland Security 

     EAB                     Enterprise Architecture Board        

     IT                      Information Technology

     TEAMS                   The Enterprise Architecture Management System 



Figures
     Figure 1                Office of Enterprise Architecture and Governance Reporting Chain .....3 

     Figure 2                Office of Enterprise Architecture and Governance .................................4 

     Figure 3                Coast Guard’s Enterprise Architecture Framework ................................6 

     Figure 4                Enterprise Architecture Perspective Data Levels ....................................7 

     Figure 5                Enterprise Architecture Profiles, Models, and Inventories .....................7 

     Figure 6                Status of Products for Profiles, Models, and Inventories ......................13 

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                    We audited the United States Coast Guard’s (Coast Guard) effort
                    to develop and implement an enterprise architecture to support its
                    business processes and information technology (IT) decision
                    making. The objectives of this audit were to determine the level of
                    compliance with established federal guidance and the Department
                    of Homeland Security’s enterprise architecture policies and
                    procedures, and to determine whether the Coast Guard has aligned
                    its strategic plans and individual business priorities within an
                    appropriate enterprise architecture framework.

                    The Coast Guard has made progress in developing its enterprise
                    architecture by defining its enterprise architecture framework in
                    alignment with both federal and DHS architectures. In addition, its
                    enterprise architecture is aligned with the Coast Guard’s IT
                    strategy. These achievements have been possible because of
                    executive support for the enterprise architecture effort.

                    The enterprise architecture effort is not without challenges,
                    however. Specifically, the Coast Guard enterprise architecture is
                    not yet fully integrated across the Coast Guard. That is, the
                    enterprise architecture does not show fully how major information
                    systems fit together. Additionally, Coast Guard enterprise
                    architecture planning and documentation have not been completed.
                    Coast Guard enterprise architecture management stated that a
                    shortage of staff has been the main reason for not completing
                    enterprise architecture planning and documentation. As a result,
                    the Coast Guard enterprise architecture has realized only partial
                    benefits thus far.

                    We are recommending that the Commandant of the Coast Guard
                    direct the Office of Enterprise Architecture and Governance to
                    complete and integrate the enterprise architecture data elements,
                    profiles, models, and inventories; and complete the required Coast
                    Guard enterprise architecture documentation. To complete these
                    activities, we also recommend that the Office of Enterprise
                    Architecture and Governance be provided with sufficient
                    resources.


         Review of U.S. Coast Guard Enterprise Architecture Implementation Process

                                          Page 1
Background
                  The Coast Guard is a maritime military service within the
                  Department of Homeland Security and one of the nation's five
                  armed services. Its mission is to save lives, safeguard maritime
                  borders, respond to natural and man-made disasters, and interdict
                  illegal drugs. The Coast Guard has a heavy reliance on technology
                  to support and provide information to achieve its mission. In fiscal
                  year 2008, the Coast Guard’s IT budget was $610 million.

                  A critical component of IT decision making is an enterprise
                  architecture. An enterprise architecture that describes and
                  documents the current and desired relationships among business
                  and management processes and IT can help leaders view business
                  and technical information so that they can make important IT
                  investment decisions. In addition, an enterprise architecture can
                  help agencies properly align their resources to agency mission,
                  strategic goals, and objectives.

                  An enterprise architecture is composed of three main parts—the
                  As-Is enterprise architecture, the Enterprise Transition Plan, and
                  the To-Be enterprise architecture. The As-Is enterprise
                  architecture portrays the existing enterprise, current business
                  practices, and technical infrastructure. The Enterprise Transition
                  Plan shows the transition of the agency’s enterprise architecture
                  from its As-Is to its To-Be state. The To-Be enterprise
                  architecture, also known as a Target enterprise architecture,
                  portrays the future business practices and technical infrastructure.
                  The To-Be enterprise architecture should be in line with the
                  agency’s strategic plan.

                  An enterprise architecture typically uses a framework that looks at
                  the agency’s business and IT information through different
                  perspectives. This framework promotes information sharing and
                  business integration. The framework perspectives include:

                  �	 Performance: Information about the measurement of an
                     agency’s strategic and business outcomes.
                  �	 Business: The functions and activities that an agency
                     performs.
                  �	 Information: The information needed to perform the agency’s
                     mission and business activities.
                  �	 Service: The systems and applications with their capabilities
                     and functions that support information requirements.
                  �	 Technology: The underlying technology infrastructure that
                     supports an agency’s service delivery.
       Review of U.S. Coast Guard Enterprise Architecture Implementation Process

                                        Page 2
                          �	 Security: How an agency assures the confidentiality, integrity,
                             availability, and privacy of its information.

                          The Coast Guard’s Office of Enterprise Architecture and
                          Governance provides the leadership and direction to ensure
                          effective planning, management, and governance 1 of IT resources
                          and the Coast Guard enterprise architecture. The office’s Chief
                          Architect reports directly to the Deputy Chief Information Officer.
                          Figure 1 shows the office’s reporting relationships within the Coast
                          Guard.




                          Figure 1: Office of Enterprise Architecture and Governance Reporting
                          Chain

                          The Office of Enterprise Architecture and Governance
                          responsibilities include:

                          �	 Developing, documenting, and maintaining the Coast Guard
                             enterprise architecture and the Coast Guard’s IT plans;
                          �	 Supporting performance results, mission-technology alignment,
                             information sharing and accessibility, component re-use of IT,
                             systems interoperability and integration, technology standards,
                             and information assurance;
                          �	 Validating and maintaining requirements to ensure alignment
                             of the Coast Guard enterprise architecture and IT plans;
                          �	 Implementing a repository of IT business and technology
                             information.




1
 IT Governance helps enterprises to gain value from information and IT while ensuring that IT remains
aligned with the enterprise strategy, values, and culture.
               Review of U.S. Coast Guard Enterprise Architecture Implementation Process

                                                 Page 3
           The Office of Enterprise Architecture and Governance structure
           currently contains the organizations shown in Figure 2.




           Figure 2: Office of Enterprise Architecture and Governance




Review of U.S. Coast Guard Enterprise Architecture Implementation Process

                                 Page 4
Results of Audit

Progress Made with the Coast Guard’s Enterprise
Architecture
                            Federal guidance requires that agencies develop an enterprise
                            architecture to govern their business processes and IT. 2 Toward
                            that end, the Coast Guard has made significant progress in
                            developing its enterprise architecture. Specifically, the Coast
                            Guard has defined its enterprise architecture framework;
                            completed the majority of its enterprise architecture data profiles,
                            models, and inventories; and aligned its enterprise architecture
                            with its IT strategic plan. These achievements have been, in part,
                            possible because of the Coast Guard’s strong executive support for
                            its enterprise architecture program. As a result, it is well
                            positioned to implement an enterprise architecture that aligns to
                            federal mandates and supports the agency’s mission.

Enterprise Architecture Framework Defined

                            The Coast Guard has defined an enterprise architecture framework
                            that is intended to provide a blueprint for modernizing and
                            transforming the Coast Guard’s IT systems to meet future mission
                            capabilities and requirements. When fully implemented, the Coast
                            Guard enterprise architecture can help assure that the Coast Guard
                            business strategy and IT investments are aligned to support its
                            vision and missions. This assurance can promote interoperability,
                            reduce duplication, and optimize overall mission performance to
                            allow the Coast Guard to respond rapidly, effectively, and
                            positively to opportunities and challenges.

                            The Coast Guard enterprise architecture framework 3 shown in
                            Figure 3 contains the six perspectives that will allow stakeholders
                            to compare and relate information across mission and
                            organizational boundaries to promote information sharing and
                            integration. These perspectives align to both the Federal and DHS
                            Enterprise Architectures.




2
    E-Government Act of 2002, Public Law 107-347. 

3
    United States Coast Guard, Enterprise Architecture Executive Handbook, Release 2 (March 2008). 

                  Review of U.S. Coast Guard Enterprise Architecture Implementation Process

                                                   Page 5
                      Figure 3: Coast Guard’s Enterprise Architecture Framework

Enterprise Architecture Profiles, Models, and Inventories Mostly Completed

                      Each Coast Guard enterprise architecture framework perspective
                      contains three levels of data detail, known as profiles, models, and
                      inventories.

                      �	 Profile: Provides executive decision-makers with a graphic
                         view of strategic-level data to simplify complex information
                         concerning the various enterprise architecture perspectives.
                      �	 Model: Provides a graphical view of mid-level data and its
                         connections between the enterprise architecture perspectives,
                         such as the relationships between processes, entities, and
                         information exchanges.
                      �	 Inventory: Provides a detailed view and description of the data
                         within each enterprise architecture perspective.

                      These data levels are shown in Figure 4.




           Review of U.S. Coast Guard Enterprise Architecture Implementation Process

                                            Page 6
           Figure 4: Enterprise Architecture Perspective Data Levels

           Once the three data levels for each perspective are completely
           documented, an enterprise architecture is considered to be fully
           integrated and can then be used to provide valuable relationships
           among enterprise-level processes and IT.

           The Coast Guard has identified all of the enterprise architecture
           data profiles, models, and inventories for each of the six enterprise
           architecture perspectives. In addition, the Coast Guard has defined
           and documented the majority of these levels of data. Specifically,
           21 of the 24 profiles, 4 of the 7 models, and 15 of the 22
           inventories identified have been entered into the Coast Guard
           enterprise architecture. Figure 5 shows the completion of these
           Coast Guard enterprise architecture data elements.


                               3
                Profiles                                        21
                                                                      24



                               3                                                Not Complete
                Models             4                                            Complete
                                          7                                     Total Identified



                                          7
             Inventories                              15
                                                                 22


                           0       5            10   15    20         25   30


           Figure 5: Enterprise Architecture Profiles, Models, and Inventories

           Although enterprise architecture documentation has yet to be
           completed, the Coast Guard has already begun using the Coast
           Guard enterprise architecture. For example, program managers
           responsible for technology implementation projects have begun to
Review of U.S. Coast Guard Enterprise Architecture Implementation Process

                                       Page 7
                      refer to the Coast Guard enterprise architecture’s IT inventory
                      when beginning new IT projects. In addition, Coast Guard
                      enterprise architecture’s IT products and standards inventory is
                      referred to almost daily to identify existing IT products and
                      technical standards used to deliver Coast Guard services and IT
                      capabilities. Regular use of these inventories should help to
                      identify and prevent potential duplication of technology across the
                      agency.

Enterprise Architecture Aligned to IT Strategy

                      The Coast Guard enterprise architecture effort generally aligns to
                      the agency’s overall IT strategy. The Coast Guard’s IT Strategic
                      Plan identifies five high-level goals relating to Information,
                      Technology, Governance, Organizational Excellence, and Security.
                      The Coast Guard has developed enterprise architecture-specific
                      milestones for three of the five goals—Information, Technology,
                      and Governance. Also, the Coast Guard reports that it has
                      achieved all of the fiscal year 2008 enterprise architecture
                      milestones for these three goals, as follows:

                      Information
                      The IT Strategic Plan defines the Information goal as improving
                      and encouraging information sharing, quality, efficiency, and
                      compliance throughout the Coast Guard. The enterprise
                      architecture 2008 milestones identified and met for the Information
                      goal include:

                      �	 Published the Coast Guard Information Management Strategy,
                      �	 Completed the Systems Development Life Cycle of the
                         enterprise architecture repository, The Enterprise Architecture
                         Management System (TEAMS),
                      �	 Completed certification and accreditation for TEAMS, and
                      �	 Established the Enterprise Data Management Office and the
                         Enterprise Geospatial Management Office.

                      Technology
                      The IT Strategic Plan defines the Technology goal as delivering
                      mission-focused, interoperable, innovative, and net-centric
                      Command, Control, Communications, Computing, and IT (C4&IT)
                      using enterprise-wide solutions, and optimized infrastructure, and
                      electromagnetic spectrum frequency. The enterprise architecture
                      2008 milestones identified and met for the Technology goal
                      include:


           Review of U.S. Coast Guard Enterprise Architecture Implementation Process

                                            Page 8
                     �	 Finalized the Enterprise Architecture Board (EAB) submission
                        form, and
                     �	 Published release 2 of the Coast Guard Enterprise Architecture
                        Executive Handbook.

                     Governance
                     The IT Strategic Plan defines the Governance goals as providing
                     C4&IT governance to meet requirements and encourage effective
                     enterprise architecture, capital planning and investment control,
                     systems development life cycle, project management, and
                     performance measurement processes. The enterprise architecture
                     2008 milestones identified and met for the Governance goal
                     include:

                     �	 Published release 2 of the Coast Guard Enterprise Architecture
                        Executive Handbook,
                     �	 Supported the DHS Office of Inspector General’s audit of the
                        Coast Guard’s Enterprise Architecture,
                     �	 Conducted EAB reviews,
                     �	 Published the Coast Guard Information Management Strategy,
                     �	 Completed the TEAMS system development life cycle, and
                     �	 Completed certification and accreditation for TEAMS.

                     The progress made in completing the enterprise architecture-
                     specific milestones demonstrates the Coast Guard’s commitment to
                     ensuring the strategic alignment of its enterprise architecture effort
                     to the overall agency goals for improving IT direction. As a result,
                     the Coast Guard is in a good position to use the Coast Guard
                     enterprise architecture to achieve its IT strategic goals and to
                     provide the agency with an effective way to identify cost savings
                     opportunities and to reduce redundancy across its IT environment.

Executive Support

                     The Coast Guard’s enterprise architecture development has been
                     successful thus far due to the commitment and support provided by
                     Coast Guard management. For example, Coast Guard
                     management showed its commitment to the enterprise architecture
                     program through approval of the enterprise architecture Board
                     charter. The charter gives the Board the authority to make
                     recommendations to the Coast Guard’s Investment Review Board,
                     including guidance on IT investment decisions. From December
                     2007 to September 2008, the Coast Guard’s enterprise architecture
                     Board reviewed 30 proposed IT projects. The results of these
                     reviews were used by the Investment Review Board to make IT
                     investment decisions better aligned to the Coast Guard’s mission.
          Review of U.S. Coast Guard Enterprise Architecture Implementation Process

                                           Page 9
           The Coast Guard further showed its support by selecting a senior
           Coast Guard officer as a subject matter expert to work with the
           Office of Enterprise Architecture and Governance, who is
           committed for three years to provide enterprise architecture
           support and insight into the Coast Guard’s business processes.




Review of U.S. Coast Guard Enterprise Architecture Implementation Process

                                Page 10
Challenges Remain to Complete Enterprise Architecture
Efforts
                      Although significant progress has been made, the Office of
                      Enterprise Architecture and Governance has struggled to complete
                      the Coast Guard enterprise architecture. Specifically, it has not
                      integrated the enterprise architecture or completed plans and
                      enterprise architecture documentation because of staffing
                      shortages. Until these actions are completed, the Coast Guard will
                      not realize the full benefits of its enterprise architecture and the
                      program risks losing executive support.

Coast Guard Enterprise Architecture Not Integrated Fully

                      The Coast Guard has not fully integrated its enterprise architecture.
                      Integration is needed to show how the data from various major
                      information systems fits together. There are 3 profiles, 3 models,
                      and 7 inventories for the enterprise architecture that have not been
                      completed. The 3 profiles not completed are:

                      �	 C4&IT Performance Profile: The C4&IT performance metrics
                         as they relate to the DHS performance areas and federal
                         enterprise architecture Business Reference Model.
                      �	 Balanced Scorecard for C4&IT: An overview of Coast Guard
                         C4&IT performance related to business process, learning and
                         growth, customers, and finances.
                      �	 External Services Profile: Provides a high-level view of
                         systems leveraged at the Coast Guard but managed outside the
                         Coast Guard.

                      The 3 models not completed are:

                      �	 Unified Performance Logic Model: A framework for
                         planning, managing, measuring, and evaluating Coast Guard
                         enterprise architecture programs. It illustrates the cause and
                         effect linkages between program activities and outcome results.
                      �	 Business Models: Displays Coast Guard enterprise
                         architecture business activities and can be used to identify
                         dependencies, redundancies, and gaps between the Coast
                         Guard’s activities.
                      �	 Applications to Business Activities Matrix: Describes the
                         relationship between Coast Guard services and activities.




           Review of U.S. Coast Guard Enterprise Architecture Implementation Process

                                           Page 11
           The 7 inventories not completed are:

           �	 Functional Statements: Describes the roles and missions of the
              Coast Guard headquarters offices.
           �	 Information Inventory: Shows all information objects,
              produced, archived, and/or required for Coast Guard enterprise
              architecture activities, reporting, and decision making, and
              their relationship within the DHS Conceptual Data Model.
           �	 Information Exchange Matrix: Identifies the information
              transfers that are necessary to achieve Coast Guard tasks.
           �	 Information Dictionary: Identifies, defines, and provides
              additional data to describe items listed in the information
              inventory.
           �	 Services Inventory: Aligns Coast Guard applications and
              systems to the federal enterprise architecture. As such, it helps
              to explain the services offered by each of the Coast Guard's
              applications and systems.
           �	 External Services Inventory: Describes systems managed
              outside the Coast Guard and is organized by grouping
              applications to systems. The content includes attributes across
              each of the six Coast Guard perspectives and provides a
              baseline mapping assets to the DHS and federal enterprise
              architectures.
           �	 Frequency Spectrum Inventory: Lists the frequency spectrums
              necessary for the Coast Guard’s mission operations.

           Figure 6 shows the profiles, models, and inventories completed
           and not completed for the six enterprise architecture perspectives.




Review of U.S. Coast Guard Enterprise Architecture Implementation Process

                                Page 12
                      Figure 6: Status of Products for Profiles, Models, and Inventories

                      Without a full set of “As Is” profiles, models, and inventories, the
                      Coast Guard has been unable to integrate fully the Coast Guard
                      enterprise architecture across the six defined perspectives. As a
                      result, the Coast Guard may be hindered in its ability to use its
                      enterprise architecture effectively to increase interoperability,
                      reduce duplication of IT, and optimize the agency’s overall
                      mission performance.

Coast Guard Enterprise Architecture Plans and Documentation Not Complete

                      Although the Office of Enterprise Architecture and Governance
                      has completed a significant amount of planning and governance
                      documentation, several plans and documents still require
                      completion. For example, the To-Be enterprise architecture and
                      the Transition Plan have not been completed. Without the To-Be
                      enterprise architecture, the Coast Guard has not defined its future
                      business practices and technical infrastructure. The Transition
                      Plan, which is developed after completion of the To-Be enterprise
                      architecture, would show how the Coast Guard intends to move
                      from its current, As-Is enterprise architecture to its target, To-Be
                      enterprise architecture.

                      Also, the enterprise architecture charter, program plan, and concept
                      of operations for two enterprise architecture organizations, the
                      Enterprise Data Management Office and the Geospatial
                      Management Office, have not been developed. Once complete, an
                      enterprise architecture charter should identify the initial roles and
           Review of U.S. Coast Guard Enterprise Architecture Implementation Process

                                           Page 13
                      responsibilities of work teams and establish the enterprise
                      architecture phases and tasks required. Program plans describe
                      both the “as-is” and the “to-be” environments of the enterprise, as
                      well as a method to transition from the “as-is” to the “to-be.”
                      Finally, a concept of operations is intended to describe both the
                      current business environment and the future process planned to
                      manage operations.

                      Completely documented models within the enterprise architecture
                      framework are necessary to improve the Coast Guard’s ability to
                      achieve its mission-based business objectives, reduce cost, and
                      improve IT and business performance. The incomplete enterprise
                      architecture plans and documentation could result in duplication of
                      effort and increased IT costs. Until the Coast Guard can complete
                      its target architecture and transition plan, it will have a reduced
                      ability to identify IT gaps, redundancies, inefficiencies, and
                      opportunities for technology and process improvement.

Enterprise Architecture Staffing is Limited

                      Coast Guard executives stated that enterprise architecture profiles,
                      models, inventories, and necessary documentation have not been
                      completed due to staff shortages. The Coast Guard’s enterprise
                      architecture staffing included 8 full-time personnel. Enterprise
                      architecture management has identified a need for at least 15 full-
                      time staff or equivalent contractor support.

                      Enterprise architecture management stated that current staff
                      worked well together and had significant experience in the areas of
                      governance, enterprise architecture software use, business
                      architecture design, project management, and communications.
                      However, there is a need for additional staff with expertise in
                      program management, data architecture, application architecture,
                      and geospatial knowledge. Enterprise architecture management
                      stated that without adequate staff, it will be difficult to complete
                      enterprise architecture integration, documentation and planning,
                      and benefits communication activities.

                      Coast Guard management recognizes its enterprise architecture
                      staffing challenges. Specifically, in May 2009, the Office of
                      Enterprise Architecture and Governance assessed its staffing needs
                      to ensure that the Coast Guard enterprise architecture program has
                      sufficient staff with the right skills and experience. The
                      assessment addresses both the strengths and weaknesses of current
                      staff and identifies the number of additional full-time staff needed
                      broken down by their roles and required skills.
           Review of U.S. Coast Guard Enterprise Architecture Implementation Process

                                           Page 14
                      The Office of Enterprise Architecture and Governance also
                      identified the activities that it could accomplish with the additional
                      staff. For example, the Office could begin the development of
                      business architecture models, the development and maintenance of
                      the Coast Guard Data Asset Catalog, Enterprise Data Catalog, and
                      Data Asset Repository, and expand support of the Coast Guard’s
                      efforts to establish, monitor, and maintain C4&IT governance.

Enterprise Architecture Benefits Realized Partially

                      The completion of the enterprise architecture framework and the
                      availability of documented IT systems and standards have provided
                      the Coast Guard with some benefits. For example, the framework
                      provides a common structure that helps stakeholders to understand
                      the various business and technical information within the Coast
                      Guard. Also, the IT systems and standards documented within the
                      Coast Guard’s enterprise architecture have provided program
                      managers with the ability to identify IT products already in use.

                      However, enterprise architecture management was unable to
                      provide specific examples of where the Coast Guard enterprise
                      architecture has reduced cost, identified duplicative IT, or better
                      aligned IT to the agency’s mission and goals. Without completing
                      the enterprise architecture integration and documentation activities,
                      it will be difficult for the Coast Guard to demonstrate enterprise
                      architecture benefits, which may result in loss of enterprise
                      architecture program executive and stakeholder support.

Recommendations
                      We recommend that the Commandant of the Coast Guard direct
                      the Office of Enterprise Architecture and Governance to:

                      1.	 Complete and integrate the enterprise architecture data profiles,
                          models, and inventories.

                      2.	 Complete required enterprise architecture documentation.

                      We also recommend that the Commandant of the Coast Guard:

                      3.	 Provide the Office of Enterprise Architecture and Governance
                          with sufficient resources to complete required enterprise
                          architecture activities.



           Review of U.S. Coast Guard Enterprise Architecture Implementation Process

                                           Page 15
Management Comments and OIG Analysis
                  We obtained written comments on a draft of this report from the
                  Chief of the Office of Budget and Programs. We have included a
                  copy of the comments in their entirety in Appendix B.

                  In the comments, the Chief of the Office of Budget and Programs
                  concurred with our recommendations and stated that corrective
                  actions have been initiated to resolve deficiencies identified. We
                  believe that such efforts are good steps toward mitigating the
                  various issues we raised in our report and look forward to learning
                  more about continued progress and improvements in the future.

                  In response to recommendation 1, the Chief of the Office of
                  Budget and Programs stated that the Office of Enterprise
                  Architecture and Governance continues to work to complete and
                  integrate data profiles, models, and inventories and is working to
                  close the gap on the seven inventories not yet complete as well as
                  the three models not finalized.

                  Responding to recommendation 2, the Chief of the Office of
                  Budget and Programs stated that the To-Be enterprise architecture
                  and Transition Plan are currently under development.
                  Additionally, several other planning documents, including an
                  enterprise architecture charter, program plan, and concept of
                  operations are under development.

                  In response to recommendation 3, the Chief of the Office of
                  Budget and Programs stated that the Coast Guard is committed to
                  providing the Office of Enterprise Architecture and Governance
                  with the appropriate level of resources, given overall enterprise
                  architecture development requirements.




       Review of U.S. Coast Guard Enterprise Architecture Implementation Process

                                       Page 16
Appendix A
Scope, Objective, and Methodology


                      We reviewed the Coast Guard enterprise architecture to determine
                      the level of compliance with established federal guidelines and
                      DHS enterprise architecture policies and procedures, and to
                      determine whether the Coast Guard has aligned its strategic plans
                      and business priorities within an appropriate enterprise architecture
                      framework.

                      We researched and reviewed federal guidance and standards and
                      DHS’ guidance regarding enterprise architecture, governance, and
                      Capital Planning and Investment Control. Using this information
                      we developed a data collection approach consisting of analyzing
                      documentation, interviewing staff, attending system walkthroughs,
                      and observing board meetings to accomplish our audit objectives.

                      We interviewed staff members from various Coast Guard
                      organizations with responsibility for and knowledge of enterprise
                      architecture activities at Coast Guard’s headquarters in
                      Washington, DC. These interviews were performed to obtain a
                      better understanding of Coast Guard enterprise architecture.
                      Interview questions were based on DHS’ guidance and policies;
                      and Coast Guard’s policies, procedures, and related enterprise
                      architecture management and governance practices.

                      We conducted our audit from April 2008 through April 2009 under
                      the authority of the Inspector General Act of 1978, as amended.
                      We conducted this performance audit according to generally
                      accepted government auditing standards. Those standards require
                      that we plan and perform the audit to obtain sufficient, appropriate
                      evidence to provide a reasonable basis for our findings and
                      conclusions based on our audit objectives. We believe that the
                      evidence obtained provides a reasonable basis for our findings and
                      conclusions based on our audit objectives.

                      The principal OIG points of contact for this audit are Frank Deffer,
                      Assistant Inspector General for Information Technology Audits,
                      and Richard Harsche, Director of Information Management. Major
                      OIG contributors to the audit are identified in Appendix C.




           Review of U.S. Coast Guard Enterprise Architecture Implementation Process

                                           Page 17
Appendix B
Management Response to Draft Report




           Review of U.S. Coast Guard Enterprise Architecture Implementation Process 


                                            Page 18 

Appendix B
Management Response to Draft Report




           Review of U.S. Coast Guard Enterprise Architecture Implementation Process 


                                            Page 19 

Appendix C
Major Contributors to the Report


                       Richard Harsche, Director, Department of Homeland Security,
                       Information Management

                       Ernest Bender, Audit Manager, Department of Homeland Security,
                       Information Management

                       Karen Nelson, Senior Auditor, Department of Homeland Security,
                       Information Management

                       Erin Dunham, Auditor, Department of Homeland Security,
                       Information Management

                       Charles Twitty, Referencer, Department of Homeland Security,
                       Information Technology Audits




            Review of U.S. Coast Guard Enterprise Architecture Implementation Process 


                                             Page 20 

Appendix D
Report Distribution


                       Department of Homeland Security

                       Secretary
                       Deputy Secretary
                       Chief of Staff for Operations
                       Chief of Staff for Policy
                       Assistant Secretary for Policy
                       General Counsel
                       Executive Secretariat
                       Acting Chief Information Officer
                       Deputy Chief Information Officer
                       Acting Chief Financial Officer
                       Acting Chief Procurement Officer
                       Director, GAO/OIG Liaison Office
                       Assistant Secretary for Public Affairs
                       Assistant Secretary for Legislative Affairs
                       U.S. Coast Guard Audit Liaison

                       Office of Management and Budget

                       Chief, Homeland Security Branch
                       DHS OIG Budget Examiner

                       Congress

                       Congressional Oversight and Appropriations Committees, as
                       appropriate




            Review of U.S. Coast Guard Enterprise Architecture Implementation Process 


                                             Page 21 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
